<html>
<title> - NOMINATION OF VERNON B. PARKER, OF ARIZONA, TO BE ASSISTANT SECRETARY OF AGRICULTURE FOR CIVIL RIGHTS</title>
<body><pre>[Senate Hearing 108-086]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-086

                   NOMINATION OF VERNON B. PARKER, OF
   ARIZONA, TO BE ASSISTANT SECRETARY OF AGRICULTURE FOR CIVIL RIGHTS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 20, 2003

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

88-829              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  THAD COCHRAN, Mississippi, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
PAT ROBERTS, Kansas                  KENT CONRAD, North Dakota
PETER G. FITZGERALD, Illinois        THOMAS A. DASCHLE, South Dakota
SAXBY CHAMBLISS, Georgia             MAX BAUCUS, Montana
NORM COLEMAN, Minnesota              BLANCHE L. LINCOLN, Arkansas
MICHEAL D. CRAPO, Idaho              ZELL MILLER, Georgia
JAMES M. TALENT, Missouri            DEBBIE A. STABENOW, Michigan
ELIZABETH DOLE, North Carolina       E. BENJAMIN NELSON, Nebraska
CHARLES E. GRASSLEY, Iowa            MARK DAYTON, Minnesota

                 Hunt Shipman, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

               Lance Kotschwar, Majortiy General Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination Hearing for Vernon B. Parker, of Arizona, to be 
  Assistant 
  Secretary of Agriculture for Civil Rights......................    01

                              ----------                              

                        Thursday, March 20, 2003
                    STATEMENTS PRESENTED BY SENATORS

Cochran, Hon. Thad, a U.S. Senator from Mississippi, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    07
Dole, Hon. Elizabeth, a U.S. Senator from North Carolina.........    03
Kyl, Hon. Kyl, a U.S. Senator from Arizona.......................    01
McCain, Hon. John, a U.S. Senator from Arizona...................    02
                              ----------                              

                               WITNESSES

Parker, Vernon B., of Paradise Valley, Arizona, to be Assistant 
  Secretary of Agriculture for Civil Rights......................    04
                              ----------                              

                                APPENDIX

Prepared Statements:
    Leahy, Hon. Patrick..........................................    17
    Lincoln, Hon. Blanche........................................    16
    Parker, Vernon B.............................................    18
Rural Coalition/Coalicion Rural and the Federation of Southern 
  Cooperatives/Land Assistance Fund(retained in the Committee 
  files).........................................................
Document(s) Submitted for the Record:
    Baucus, Hon. Max.............................................    23
    Lugar, Hon. Richard..........................................    22
    Parker, Vernon B., (Biographical Information)................    25
Questions and Answers:
    Baucus, Hon. Max.............................................    55
    Dayton, Hon. Mark............................................    59
    Harkin, Hon. Tom.............................................    44
    Leahy, Hon. Patrick..........................................    53
    Lincoln, Hon. Blanche........................................    50


 
                  NOMINATION OF VERNON B. PARKER, OF 
   ARIZONA, TO BE ASSISTANT SECRETARY OF AGRICULTURE FOR CIVIL RIGHTS

                              ----------                              


                        THURSDAY, MARCH 20, 2003

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:33 a.m., in 
room SR-328A, Russell Senate Office Building, Hon. Thad 
Cochran, [Chairman of the Committee], presiding.
    Present or submitting a statement: Senators Cochran, Dole, 
Grassley, Harkin, Leahy, and Lincoln.

      STATEMENT OF HON. THAD COCHRAN, A U.S. SENATOR FROM 
MISSISSIPPI, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    The Chairman. The committee will please come to order.
    This morning we are conducting a hearing on the nomination 
of Mr. Vernon Park, who has been nominated by President Bush to 
assume the responsibility of Assistant Secretary for Civil 
Rights in the Department of Agriculture. This is a position 
that was created in the 2002 Farm bill that was passed by 
Congress and signed by the President.
    I am pleased to notice that we have Senator Jon Kyl, who is 
here with Mr. Parker. Senator Kyl is from Arizona; Mr. Parker 
is from Arizona. Before we proceed any further, Senator Kyl, we 
will recognize you for any introductory comments that you would 
like to make.

     STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM ARIZONA

    Senator Kyl. Well, thank you very much, Mr. Chairman. That 
is kind. I will make a couple of remarks, and then at your 
pleasure will excuse myself to go to a briefing.
    It is a real privilege for me to introduce to my friends on 
the committee here another friend from Arizona, Vernon Parker, 
who has distinguished himself as an Arizonan and I know will 
distinguish himself here in Washington, D.C.
    He is a lawyer, a community leader, a public servant. A 
little bit about his background: he graduated from Georgetown 
Law School and while there was editor of the American Criminal 
Law Review. He rapidly rose after his graduation to the 
position of general counsel at the Office of Personnel 
Management. He has also served as special assistant to 
President Bush I, a role that required him to oversee more than 
300 Presidential boards and commissions. Since he moved to 
Arizona, Vernon Parker has achieved further distinction as a 
business leader, first as a consultant, and then as president 
and CEO of Scottsdale-based Bel Sante International. 
Throughout, he has maintained a high-level involvement in 
community organizations and, I might also mention, some 
involvement in politics.
    Most recently, he served as interim pastor of his church, 
the Calvary Church of Valley in Paradise Valley, and I just 
want to say that his legal skills and his dedication to equal 
opportunity will permit him to excel as Assistant Secretary of 
Agriculture for Civil Rights. As I said, it is a real privilege 
for me to introduce him. I could say much more, but I know in 
the interest of brevity that this should suffice.
    I personally endorse him for the position and look forward 
to his quick confirmation.
    The Chairman. Thank you very much, Senator. We appreciate 
your being here to say those things about the nominee. We are 
pleased to have your statement, and we know you have other 
obligations, and you are certainly free to return to those.
    Senator Kyl. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We are also pleased to have before the committee this 
morning Senator John McCain, the other Senator from Arizona. We 
appreciate your being here, Senator, to make any opening 
comments or remarks about Mr. Vernon Parker that you would care 
to make. Welcome.

   STATEMENT OF HON. JOHN McCAIN, A U.S. SENATOR FROM ARIZONA

    Senator McCain. I thank you, Mr. Chairman, and I thank my 
colleague and friend, Senator Kyl, for his remarks. I very 
rarely elaborate on his statements since he covers everything 
usually completely. I would like to add my strong support to 
Vernon Parker who is a proud--we are proud that he is a 
resident of Paradise Valley, Arizona, but most importantly, we 
are proud of his record of commitment to community and public 
service and improving the lives of children. His dedication to 
public service is certainly demonstrated by his willingness to 
assume this position.
    He has been in the Office of Personnel Management, served 
in the first Bush administration. He is also an entrepreneur, 
serving as president and CEO of Bel Sante International, LLC.
    I am proud of this young man. I am pleased that the 
President has nominated him for this very important position. 
We know how important this position and these issues are to all 
of us that he will be involved in, and I strongly recommend the 
committee's approval. I thank the Chairman and members of the 
committee for allowing me to be here.
    The Chairman. Thank you very much, Senator. We appreciate 
your comments and we respect your views and your service in the 
Senate. You are a good friend. We appreciate your coming to the 
committee this morning.
    Senator McCain. Thank you, Mr. Chairman, members of the 
committee.
    The Chairman. Mr. Parker, under the rules of the Senate, we 
are required to put you under oath before we proceed with the 
testimony in the committee. If you will please stand and raise 
your right hand. Do you swear or affirm that the testimony you 
are about to provide is the truth, the whole truth, and nothing 
but the truth, so help you God?
    Mr. Parker. I do.
    The Chairman. Thank you. You may be seated.
    Before we proceed with any questions, I want to know if the 
distinguished Senators who are here, Senator Grassley, Senator 
Dole, have any opening comments or statement for the record? If 
you would like to make a statement, please proceed.
    Senator Dole. Thank you, Mr. Chairman. Let me ask Senator 
Grassley first, though, as my senior, would you like to make a 
statement?
    Senator Grassley. It happens on this committee I am your 
junior.
    [Laughter.]
    Senator Grassley. You should go ahead.
    Senator Dole. OK.
    The Chairman. Senator Dole.

STATEMENT OF HON. ELIZABETH H. DOLE, A U.S. SENATOR FROM NORTH 
                            CAROLINA

    Senator Dole. Mr. Chairman, the 107th Congress recognized, 
as you mentioned, that it was imperative for the U.S. 
Department of Agriculture to have a senior post specifically 
dedicated to the issue of civil rights. I favor the action 
taken in the 2002 Farm bill to create this post, and I strongly 
support the nomination of Vernon Parker to serve in the 
capacity as Assistant Secretary for Civil Rights.
    This job, in my view, requires someone who has a calling 
for public service, and it is clear from reviewing Mr. Parker's 
background and meeting with him in person that public service 
is indeed a calling for him.
    He has been involved in a wide range of work and community 
service that exemplifies his commitment in this regard. 
Additionally, his work in Government at the U.S. Office of 
Personnel Management and his practice of law in the private 
sector, his work as a pastor illustrate his versatility and 
ability to bridge different areas of expertise.
    This, in my opinion, makes Mr. Parker uniquely qualified 
for this post. Make no mistake, this job requires someone who 
can bring people together, someone who can bridge differences.
    Mr. Parker has the background and experience to do that, 
and I am confident that he will work to keep the Department 
focused on our commitment to ensuring equality for all of those 
who seek the services of USDA.
    Mr. Chairman, I commend Secretary Veneman for her work to 
address the numerous civil rights issues with which the 
Department has been confronted in recent years. The swift 
confirmation of Mr. Parker will allow the Department to make 
significant progress in this important area. His strength of 
character, experience, and temperament will make him an 
extraordinary asset to the Department of Agriculture. I urge my 
colleagues to support Mr. Parker's nomination for this 
important post.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Grassley, any opening statement you would care to 
make?
    Senator Grassley. No.
    The Chairman. At this point in the record, we will include 
the prepared statement of Senator Leahy.
    [The prepared statement of Senator Leahy can be found in 
the appendix on page 17.]
    The Chairman. The Assistant Secretary for Civil Rights is 
charged with the duties of enforcing and ensuring compliance 
with all civil rights laws by all agencies and under all 
programs of the Department of Agriculture. The mission of the 
Office of Civil Rights is to ``facilitate fair and equitable 
treatment of USDA customers and the employees and ensure the 
delivery and enforcement of civil rights programs and 
activities''.
    I have had the pleasure of meeting with Mr. Parker and 
reviewing his background and his qualifications, and I am very 
impressed with his fitness for this position. I look forward to 
this hearing where Senators have an opportunity to ask any 
questions they might about the qualifications and plans of Mr. 
Parker in this new office. He has a distinguished background as 
a lawyer, both in Government and in the private sector. He has 
served in the Office of Personnel Management as counselor to 
the director and then as general counsel, where he helped shape 
policies and implement those policies on various issues, 
including civil rights.
    He has also served as special assistant to the President. 
Mr. Parker has credentials as both a community leader and as an 
attorney, and he has recently served as pastor in his church.
    Mr. Parker, I know that you may have special guests or 
family members here with you today, and if you do, please feel 
free to introduce them to the committee at this time.
    Mr. Parker. Thank you, Mr. Chairman. My best friend and my 
lovely wife, Lisa; my son, Ian; and a very good friend who 
traveled all the way from Scottsdale, Arizona, Mr. Bill 
Gresser; and my surrogate brother and sister, Jackie and Kevin 
Davis. I have quite a few people here.
    The Chairman. Thank you all for being here. We appreciate 
your presence.
    [Applause.]
    The Chairman. Mr. Parker, we will now yield to you for any 
opening statement or comments that you would like to make to 
the committee. You may proceed.

  STATEMENT OF VERNON B. PARKER, OF ARIZONA, TO BE ASSISTANT 
           SECRETARY OF AGRICULTURE FOR CIVIL RIGHTS

    Mr. Parker. Thank you, Mr. Chairman. This is indeed a 
wonderful day for me. Mr. Chairman and members of this 
committee, I would like to begin by stating how proud I am to 
be from the great State of Arizona and how fortunate all 
Arizonan citizens should be to have two of the finest Senators 
to come from the State of Arizona in Senator Kyl and Senator 
McCain.
    Mr. Chairman, I would like to thank the President and 
Secretary Ann Veneman for putting their trust in me and 
nominating me for such a challenging position. I would also 
like to thank my lovely wife, Lisa, and my son, Ian, for their 
undying support while going through this process.
    Mr. Chairman, the great theologian Martin Luther once said 
that, ``Everything that is done in this world is done by 
hope.'' This morning, it is with great hope that I appear 
before this committee. My hope lies in that, if confirmed, I 
will be able to make a difference in the lives of those who may 
have had their hopes or dreams destroyed because of injustice.
    Today, there are many people who rely on the Department of 
Agriculture. They are honest Americans to whom our society has 
decided to lend a hand through Government. This Government lent 
me such a hand. As a child, I was a beneficiary of USDA 
programs. I still remember lining up in the cafeteria before 
school for that hot breakfast. As public servants, it is our 
duty to respect the dignity and foster the promises to those 
who are touched by Government programs. These are simple and 
basic American values.
    Unfortunately, Mr. Chairman, at times, obstacles get in the 
way of these values. Racism and poverty, for example, all too 
often work in synergy to rob many people of their hopes and 
dreams. If confirmed, it is my intention to work to root out 
discriminatory practices as weeds in this garden of democracy. 
I will work to develop systems to promote equality of access 
and opportunity and work toward the day when the special focus 
of this job will become unnecessary because that focus will 
have been fully moved to the hearts of every employee within 
the Department. In creating this position, you did not take it 
lightly, nor will I, if confirmed. I will rely greatly on my 
past life and work experiences.
    Speaking of those experiences, Mr. Chairman, as a child I 
was blessed by a loving extended family, a grandmother, a 
mother, and many caring aunts, all of whom instilled in me a 
deep faith in God, faith in each other, and a deep belief in 
America and its values. As a child, I suffered poverty and felt 
the discord of racism. During an unfortunate time in my life, 
my family needed Government assistance, and I remember the 
embarrassment on my mother's and grandmother's faces when they 
could not understand the forms that they had to fill out at the 
welfare office just to get food stamps. I saw individuals take 
advantage of them because of their lack of sophistication and 
because they could not read that well. They were both products 
of the segregated South.
    Mr. Chairman, I vividly remember them having to ask the 
person behind the desk for help when filling out these forms. I 
remember the look on their faces when the person helping was 
anything but helpful. I remember them questioning whether they 
were being treated differently because of their race. They 
would always say, ``I bet they would not have talked to me like 
that if I were white, or I bet they would have helped me if I 
were white.'' More importantly, Mr. Chairman, I remember the 
joy on their faces when someone would help, and many times that 
person helping would be white. Mostly I remember them telling 
me not to judge another person by the color of their skin 
because in the end, we will all be judged by our resolve not to 
judge others.
    It is my understand that today at the Department of 
Agriculture there are many people who have been denied or are 
being denied services because of the color of their skin or 
their gender. These people are just like my mother and my 
grandmother, and this is a practice which must be abolished. 
Abraham Lincoln some 141 years ago created the People's 
Department, today known as the USDA. This same President, 3 
years after creating the People's Department, freed a people by 
signing the Emancipation Proclamation. There is no agency in 
our Government whose mission is more bound to basic American 
values than the Department of Agriculture.
    As public servants, it is up to us to ensure that the 
letter and spirit of that proclamation is carried out. We are 
caretakers of the public trust; there is no higher service, 
other than service to God and family. We must, as I said 
earlier, root out discriminatory practices. At the same time, 
we must use discernment to properly identify justifiable cases 
that have no merit, because finding racism where there is none 
has a numbing effect on rooting out legitimate cases.
    If confirmed, I will rely on two overriding principles to 
guide me in achieving these goals. First, it is critical that 
we work together and commit the resources to do the job. If we 
don't, we will remain at status quo. We can either pay now or 
pay later. We can either invest in the prevention of civil 
rights abuses, or we can invest in the next landmark settlement 
eclipsing the nearly $1 billion already committed to by this 
Government.
    Second, if confirmed, I will work to knock down roadblocks 
that hinder people from achieving their dreams. The President 
and Secretary Ann Veneman have strong commitments to this 
principle. This principle extends to those who may not be in 
this room today, but whose lives are very real and whose dreams 
are rooted in the American dream of equality and justice for 
all.
    The prevention of civil rights abuses at the USDA is an 
investment in our values, a decision of the Congress and the 
President to see that the resources of this Government reach 
all those Congress intended to benefit. We must the legislative 
and executive authorities to get the job done, rather than wait 
for courts to act as Government administrators.
    In closing, Mr. Chairman and members of this committee, I 
am reminded of the words in Matthew where Christ said, 
``whatever you did for one of the least of these brothers of 
mine, you did for Me.'' Conversely, ``whatever you did not do 
for one of the least of these, you did not do for Me.''
    Mr. Chairman, I thank you and the members of this committee 
for your time and consideration, and I am available to answer 
any questions that you may have of me at this time.
    The Chairman. Thank you very much. I must say, Mr. Parker, 
that I don't recall ever hearing a more eloquent statement by a 
nominee for any office who has appeared before this committee 
for confirmation. I congratulate you on the statement and the 
spirit in which it was delivered. It was obvious to me that you 
meant what you said, and those were very reassuring words, and 
I am confident that if you keep that spirit alive within 
yourself, you will be an outstanding Assistant Secretary for 
Civil Rights for the Department of Agriculture.
    Mr. Parker. Thank you.
    The Chairman. There is one mandatory question that we have 
to ask all nominees who come before the committee for 
confirmation, and I will ask that now. Do you agree to appear 
before any duly constituted committee of the Congress, if asked 
to appear?
    Mr. Parker. Yes, sir.
    The Chairman. I have looked at your qualifications, and by 
reason of your experience with the Office of Personnel 
Management and the other duties you have had in Government and 
out of Government, you certainly have the work experience that 
would qualify you to serve in this position. I believe by your 
statement as well that you understand the role and 
responsibilities.
    Let me ask you this, though: If you are confirmed by the 
Senate and assume the duties of Assistant Secretary for Civil 
Rights, how would you measure the success of your tenure in 
this office?
    Mr. Parker. Thank you for that question, Senator. One of 
the things that I would look at is present day. How do people 
get along? I am speaking of the clients outside of the USDA who 
rely on the services of each employee there. I speak of the 
farmers. I speak of the employees under Title VII. I speak of 
Title VI programs also. If at the end of the day relationships 
can be repaired and there are no obstacles or roadblocks to 
services at the USDA, I will be very proud of that. I stand 
firmly committed to work to really have an environment where 
people feel that they have access to the system.
    The Chairman. I am pleased to note the presence of our 
distinguished Senator from Iowa, Mr. Harkin, who is the ranking 
Democrat on the committee and served as chairman of this 
committee and has presided over confirmation hearings before. 
This is the first hearing where I am presiding as chairman of 
the committee in the confirmation of a nominee before the 
committee. I am pleased that it is this nominee and for this 
position, because it is truly a landmark day of real hope and 
meaning, not only for the customers, the farmers who deal with 
the Department of Agriculture, but the employees who work 
there.
    I am impressed with the comments that have been made by 
this nominee and wish him well in the assumption of these 
duties. I am sure that your background and experience and your 
commitment to doing an excellent job I will ensure your success 
as the first Assistant Secretary for Civil Rights. Other 
Senators will respect this as well and look forward to your 
serving in this job.
    Senator Harkin, I am pleased to yield to you for any 
statement or questions you might have?

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
    MEMBER, COMMITTEE ON AGRICULTURE, NUTRTION, AND FORESTRY

    Senator Harkin. Mr. Chairman, thank you very much, and 
thank you for your great leadership of this committee and for 
being so involved when we created this. This is quite a 
compliment to you that as the chairman of the Agriculture 
Committee, this would be the first nomination you have presided 
over because this is a unique position. It is the first time we 
have ever had this position at the Department of Agriculture. 
It is extremely important that we move ahead on this as soon as 
possible, and I thank you for moving this nominee as rapidly as 
you have, Mr. Chairman.
    I just want to welcome Mr. Vernon Parker to our committee 
and extend my welcome also to your wife, Lisa, and your son, 
Ian. I enjoyed my visit with you just the other day, Mr. 
Parker, in my office. Again, you have a tough job ahead of you, 
but I am sure I can assure you that on both sides of the aisle 
up here you will have the support necessary to make this 
position strong and successful.
    It is interesting that the Department of Agriculture was 
founded 150 years ago by President Lincoln, and I don't think 
that irony is lost on us as the atmosphere at USDA has been, of 
all the departments of the Federal Government, one of the least 
friendly for minorities and women.
    While I am pleased that USDA will finally have someone 
charged with overseeing civil rights compliance at the 
Department, both here in Washington and throughout the country, 
I guess it is somewhat disappointing that such a special 
position is needed.
    Most people are aware of Pickford v. Glickman, and now 
Veneman, class action lawsuit in which thousands of African 
American farmers have received redress for decades of 
discrimination. Under the historic consent decree which flowed 
from this case, almost $700 million has been paid out to 
African American farmers. The process of providing relief has 
been plagued with problems and continues to limp along.
    In addition, other civil rights lawsuits are pending, 
including class actions by Hispanic farmers, American Indians, 
women, and minority employees of the Department of Agriculture 
itself.
    In addition, we regularly hear complaints that the culture 
at USDA continues to be troublesome. Just last month, the EEOC 
issued a report on civil rights enforcement at USDA that 
confirmed that civil rights problems remain serious and 
systemic at USDA and require, and I quote, ``immediate 
correction.''
    Unfortunately, this critical report is not an isolated one. 
Over the years, the GAO, the EEOC, and the Inspector General of 
USDA itself have issued reports critical of USDA in this 
regard.
    For that reason, we on this committee in a bipartisan, 
strong bipartisan fashion, created the Assistant Secretary for 
Civil Rights in the last Farm bill. Again, this was, first and 
foremost, to ensure top-level accountability at the Department 
of Agriculture.
    The message has to come through loudly and clearly that 
discrimination is unacceptable in any form, place, or time. Mr. 
Parker, it is critical that you have and use all the tools of 
the Department at your disposal to alleviate discrimination at 
USDA and for all USDA customers.
    Mr. Parker, I want to emphasize to you both the high hopes 
that we have for this position as well as the high 
expectations. The USDA civil rights record is a blight on the 
Department and the many fine employees at USDA who suffer guilt 
by association. It is past time that we solve this problem once 
and for all. As the first Assistant Secretary for Civil Rights, 
your actions will set a precedent for the Department and all 
future Assistant Secretaries.
    You have a tough job ahead of you. We look forward to 
working with you on this difficult but critically important 
cause. Again, I add my congratulations to you for your 
nomination to this position. Again, Mr. Chairman, I hope we can 
move this nominee as rapidly as possible.
    The Chairman. Thank you very much, Senator.
    Mr. Parker. Thank you, Senator.
    The Chairman. An excellent statement.
    Senator Grassley.
    Senator Grassley. I thank you, Mr. Chairman. This gives me 
an opportunity, Mr. Chairman, and probably the last one, to 
congratulate you on your assuming the chairmanship because this 
is the first meeting I have been able to be to, so I want to 
make sure I join all those others who have congratulated you 
after all your years of service on this committee. Being 
chairman of this committee, I had the opportunity to do the 
same thing to Senator Harkin 2 years ago. I am glad to be back 
on the committee after being off for the last 2 years.
    I don't know whether I want to ask questions so much as 
just to ask the nominee to give some consideration to some 
points of view that I might make to any nominee at the 
Department of Agriculture, but also maybe some that are 
directly related to your immediate responsibilities. Obviously 
when it comes to the issue of civil rights, I am sure you are 
very, very sensitive to all of the needs and all of the 
concerns of those things, and I wouldn't even pretend to have 
the understanding that you would of those, although I hope I 
appreciate those issues as well.
    When it comes to issues of civil rights, I know that your 
responsibilities go well beyond just things related to race, 
even though probably the really highlighted issues before the 
Department of Agriculture as they deal with civil rights, it 
seems to me that most of the highlighted ones have dealt with 
the issue of race and some American farmers not being treated 
fairly. You would have that appreciation.
    Whatever denial of civil rights that Americans have, I 
would ask that you always be sensitive to farmers having not 
only the civil rights issue but also connected with their 
occupation of farming, a lot of other things that you need to 
take into consideration, although you can only, obviously, deal 
with those things that are in your authority.
    Everybody in the Department of Agriculture should be 
concerned about sensitivity to the occupation of farming. There 
is so much about agriculture that is unpredictable, and just 
the problems of African Americans in the past not being treated 
right by county offices is just one of the problems that those 
farmers had.
    When people come to you for help, they are also 
controlled--they are affected by a lot of things that are--
practically everything that is beyond their control: whether or 
not they get enough rain or too much rain; whether or not 
international trade or international politics, what that might 
do to them.
    Everybody in the Department of Agriculture, it seems to me, 
has to be concerned about and be sensitive to the problem of 
the family farmer, has to have some understanding of the 
unpredictability of this occupation, this business. Even in the 
best of times, let me say--let's say when prices are high and 
there is plenty of rain and maybe it is all quiet on the 
international front, there is always a cloud over the head of 
the family farmer, because you don't know what is out there. 
You always end up paying somebody else what they ask for your 
input. You are always at the burden of what the price is for 
your product on the day that you might have to sell it.
    You have all the problems of civil rights you have to deal 
with, but when you are dealing with farmers of America, you 
have all those other things that you have to be sensitive 
about. I am not here saying you won't be sensitive about them. 
You may be very well sensitive about them. If you don't come 
from agriculture, I don't know whether you can be as sensitive 
as people who came from agriculture.
    I guess with that admonition, I would just simply say to 
you that when it comes to the problems of the African American 
farmer not being treated right on getting loans and on 
foreclosures and all those things that are now history, but not 
all of those--in fact, just a small minority of those groups of 
farmers at this point have been satisfied.
    One of the problems of Government is that there were 
certain rulings that gave these people justice, and then the 
bureaucracy just didn't work to get them finality. As far as I 
know, there is still a lot that don't have finality yet. It is 
one thing to fight and lose, but it is another thing to fight 
and win and then just never get victory because somebody 
doesn't like the decision of the judge or the adjudicatory 
body.
    We have to work to make sure that not only justice is 
rendered, but justice is delivered. You are going to find 
yourself up against a bureaucracy that doesn't want to ever 
admit defeat. Kind of like the IRS, they can lose in three or 
four circuits and they win in one, and they are going to follow 
the one circuit they win in. Sometimes there ought to be an 
acceptance by Government, if Government is wrong, that we 
deliver the right award to people.
    I will stop there because I have expressed as best I can as 
a farmer what faces agriculture, and I expressed as best I 
could without a full appreciation of it, certain Americans 
being denied their equal treatment under the law. You are going 
into maybe a bureaucracy that is not very friendly to what you 
have to deliver on. You are probably a fighter or you wouldn't 
want to take this on. You are going to have to be a fighter.
    If I have any questions, Mr. Chairman, I will submit those 
for answers in writing, if that is OK.
    The Chairman. That would be fine. Senator, we appreciate 
very much your eloquent statement and comments about this 
office and the nominee and the challenges that face him.
    We will leave the record of the hearing open for a period 
of 5 days within which Senators may submit questions if they 
were not able to attend this hearing and want to ask the 
witness any questions.
    Senator Lincoln, we are pleased to have you attend this 
hearing. Welcome. You may proceed with any statement or 
questions that you may have.
    Senator Lincoln. Well, a special thank you, Mr. Chairman, 
for holding this hearing, and I want to add my congratulations 
to you as well. I am proud to see you there and glad to have a 
chairman who speaks my language and happens to be a neighbor. 
Congratulations. We are looking forward to working with you.
    Mr. Parker, welcome to the committee and a very special 
welcome to your family as well. I know they are very proud to 
be with you today.
    Mr. Parker. Thank you.
    Senator Lincoln. I want to thank you for coming by my 
office, giving me an opportunity to meet you and understand, 
and I will share with my colleague, Chairman Grassley over 
there, that he did indicate to me that he had worked a little 
bit on his grandfather's farm, he has a little bit of farming 
background in him.
    Senator Grassley and I both have farming backgrounds 
ourselves, so we are always glad to know when somebody does 
have a connection with the land and has some background there.
    I am very pleased to be here today to consider your 
nomination, Mr. Parker, for the position of Assistant Secretary 
of Civil Rights. It is no secret that we have seen and continue 
to see a number of documented problems with the Department of 
Agriculture's handling of civil rights complaints, and I have 
been a strong one in advocating, writing the Secretary and 
others, to indicate that I felt like it was absolutely a 
critical position that needed to be filled and it needed to be 
filled in a timely way.
    These injustices have really affected thousands of minority 
farmers across our country, and we have had a great deal in 
Arkansas who have suffered a tremendous amount, not only 
financially but personally and very much in a personal and 
sensitive way.
    Many minority farmers have lost faith in the Department of 
Agriculture's ability to meet their special needs because of 
that, and it is always a sad thing and a disheartening thing 
when people lose trust in the Government and the agencies that 
are there to work with them and to work better toward helping 
them achieve their goals and their dreams. After all, that is 
what our Government was designed to do, and that was to work 
with the American people to help them reach their dreams.
    You know, because of that loss of faith, that is really why 
during the debate of the 2002 Farm bill I and many of my 
colleagues recognized the need for this position to oversee 
implementation of farm policy for our minority farmers and to 
respond quickly and effectively to these civil rights 
complaints.
    It was the intention of Congress that the occupant of this 
position be tasked with improving the Department's civil rights 
policies and ensuring that the Department is responsive to 
complaints and to concerns. I have to say to you, Mr. Parker, 
it is a big task which will bring great challenges. I speak for 
my colleagues when I say to you that we thank you for accepting 
these challenges. We know there will be great challenges, and 
there will be much to do in mending and binding the wounds that 
have been created over the past. We want to work with you.
    I look forward to working with you closely to ensure that 
we can improve that situation by enhancing the equity and the 
accessibility of all USDA programs so that our minority 
communities enjoy the same confidence and the reassurance as 
other American farmers do. Whether they happen to be African 
American, happen to be female, whatever--particularly Hispanic 
as well, whatever their category is, it is so important that 
they know that their Government can be trusted. You are being 
given that responsibility. We have a great deal of faith in 
you. We are looking forward to working with you and making sure 
that we provide what we can in terms of the help and the 
assistance. Certainly your initiative, your tenacity, your 
willingness to really attack this problem and go at with the 
idea that you want to rebuild that trust and bring back justice 
for these individuals is a critical component for the success 
of this new office at USDA.
    I will echo my colleague Senator Harkin's comments that we 
have high hopes and high expectations. We are willing to work 
with you to do what we have to do to make this a success, and I 
hope that we will all come together in making sure that it is a 
success.
    We thank you for being here. I thank you, Mr. Chairman. I 
have a couple of questions, and I will be glad to submit them 
to the record so that Mr. Parker can answer them.
    The Chairman. We thank you very much, Senator Lincoln, for 
your comments and your presence and influence on this 
committee. You are a valued member of the committee, and it is 
a pleasure to work with you.
    [The prepared statement of Senator Lincoln can be found in 
the appendix on page 16.]
    The Chairman. [continuing] Mr. Parker it is a compliment to 
you that you have not had any hostile questions.
    [Laughter.]
    The Chairman. The fact is that because you have met with 
Senators and you have probably answered the questions that 
those you visited with had already and you answered them in a 
way that was very reassuring. Certainly that was the case with 
my questions of you, talking about how you viewed this office 
and your role and the responsibilities it would bring to you 
and how you planned to discharge those responsibilities and 
what your background was and why you thought you were qualified 
to serve, and all those answers impressed me. The fact that 
other Senators have been here today to compliment you, to 
express our confidence in you, is a tribute to you. I want you 
to feel good about the relationship you have with this 
committee starting off in this very important undertaking.
    Because we have indicated that the record will remain open 
for a period of days for comments, statements, or questions to 
be submitted, we will probably not have another meeting of this 
committee on this nomination until that time expires. It is my 
hope that we can have a meeting as soon as possible after that 
5 days has elapsed so that we can vote to recommend 
confirmation of you to the full Senate and the Senate can act 
on it. We hope within the near future your confirmation will be 
assured and you can begin assuming the duties of Assistant 
Secretary for Civil Rights.
    I have received a statement, which we will put in the 
record, from the Rural Coalition/Coalicion Rural, and the 
Federation of Souther Cooperations/Land Assistance Fund. That 
will be made a part of the record in full.
    [The referred information is retained in the committee 
files.]
    The Chairman. If there are other statements that any other 
organizations or individuals would like to submit for the 
record, they can feel free to do so, and we will make them a 
part of the hearing record.
    Mr. Parker, that concludes the hearing, and I congratulate 
you for your performance and your selection for this job and 
wish you well in this important undertaking.
    Mr. Parker. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Parker can be found in the 
appendix on page 18.]
      
=======================================================================


                            A P P E N D I X

                             March 20, 2003



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8829.001

[GRAPHIC] [TIFF OMITTED] T8829.002

[GRAPHIC] [TIFF OMITTED] T8829.003

[GRAPHIC] [TIFF OMITTED] T8829.004

[GRAPHIC] [TIFF OMITTED] T8829.005

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 20, 2003



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8829.006

[GRAPHIC] [TIFF OMITTED] T8829.007

[GRAPHIC] [TIFF OMITTED] T8829.008

[GRAPHIC] [TIFF OMITTED] T8829.009

[GRAPHIC] [TIFF OMITTED] T8829.010

[GRAPHIC] [TIFF OMITTED] T8829.011

[GRAPHIC] [TIFF OMITTED] T8829.012

[GRAPHIC] [TIFF OMITTED] T8829.013

[GRAPHIC] [TIFF OMITTED] T8829.014

[GRAPHIC] [TIFF OMITTED] T8829.015

[GRAPHIC] [TIFF OMITTED] T8829.016

[GRAPHIC] [TIFF OMITTED] T8829.017

[GRAPHIC] [TIFF OMITTED] T8829.018

[GRAPHIC] [TIFF OMITTED] T8829.019

[GRAPHIC] [TIFF OMITTED] T8829.020

[GRAPHIC] [TIFF OMITTED] T8829.021

[GRAPHIC] [TIFF OMITTED] T8829.022

[GRAPHIC] [TIFF OMITTED] T8829.023

[GRAPHIC] [TIFF OMITTED] T8829.024

[GRAPHIC] [TIFF OMITTED] T8829.025

[GRAPHIC] [TIFF OMITTED] T8829.026

      
=======================================================================


                          QUESTION AND ANSWERS

                             March 20, 2003



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8829.027

[GRAPHIC] [TIFF OMITTED] T8829.028

[GRAPHIC] [TIFF OMITTED] T8829.029

[GRAPHIC] [TIFF OMITTED] T8829.030

[GRAPHIC] [TIFF OMITTED] T8829.031

[GRAPHIC] [TIFF OMITTED] T8829.032

[GRAPHIC] [TIFF OMITTED] T8829.033

[GRAPHIC] [TIFF OMITTED] T8829.034

[GRAPHIC] [TIFF OMITTED] T8829.035

[GRAPHIC] [TIFF OMITTED] T8829.036

[GRAPHIC] [TIFF OMITTED] T8829.037

[GRAPHIC] [TIFF OMITTED] T8829.038

[GRAPHIC] [TIFF OMITTED] T8829.039

[GRAPHIC] [TIFF OMITTED] T8829.040

[GRAPHIC] [TIFF OMITTED] T8829.041

[GRAPHIC] [TIFF OMITTED] T8829.042

[GRAPHIC] [TIFF OMITTED] T8829.043


</pre></body></html>
